                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM



                             I




               We received an allegation concerning the possible false certification about the primary
        employment of the Prjncipal Investigator (PI) to a NSF-SBIR ward.' A former company
        employee notified NSF that the PI was not employed at the company. NSF terminated the
        Grant. The company ceased operations and went out of business.

               Investigation determined that a company officer3signed the "Request for Initial
        Payment" that certified "the primary employment of the principal investigator is with this firm at
        the time of the award ahd will continue during the conduct of the research." NSF made an initial
        payment of $33,000 to 'the company.

               The company officer admitted that he signed the "Request for Initial Payment" when the
        PI was not primarily employed by the company. However, the officer said that he did not
        understand the NSF Grant requirements and other officers of the company were responsible for
        preparing and submitting the documents to NSF.

                We briefed the US Attorney's Office in the Eastern District of Virginia, which declined to
        take action on this matter. The officer offered to return $3,500 of the grant funds to NSF because
        there were no business records to support those expenses. This office, with the concurrence of
        NSF management, closed the investigation without further action upon receipt of $3,500.




                                   I




NSF OIG Fonn 2 (11/02)
